CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing Reply in Support
of Emergency Application for a Stay of the Mandate of the United States Court of
Appeals for the Fourth Circuit Pending Disposition of Forthcoming Petition for a Writ
of Certiorari was transmitted to the counsel for Respondent listed below by electronic
mail contemporaneous with its filing and that a hard-copy of the same is being sent
to the counsel for Respondent listed below by Federal Express overnight delivery,
postage prepaid:

Roman Martinez
Charles S. Dameron
Margaret A. Upshaw
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
Telephone: (202) 637-2200
Email: roman.martinez@lw.com
Email: charles.dameron@lw.com
Email: maggie.upshaw@lw.com

Dated: August 12, 2021

By:

/s/ Elizabeth M. Locke, P.C.
Elizabeth M. Locke, P.C.

